<html>
<title> - THREATS TO THE HOMELAND</title>
<body><pre>[Senate Hearing 113-426]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-426

 
                        THREATS TO THE HOMELAND

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON

               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2013

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the

        Committee on Homeland Security and Governmental Affairs





                  U.S. GOVERNMENT PRINTING OFFICE
86-635                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
            Harlan C. Geer, Senior Professional Staff Member
     Michelle C. Taylor, Federal Bureau of Investigations Detailee
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
         Daniel P. Lips, Minority Director of Homeland Security
               Mark K. Harris, U.S. Coast Guard Detailee
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     3
    Senator Johnson..............................................    16
    Senator Ayotte...............................................    19
    Senator Levin................................................    24
Prepared statements:
    Senator Carper...............................................    41

                               WITNESSES
                      Wednesday, November 14, 2013

Hon. Rand Beers, Acting Secretary, U.S. Department of Homeland 
  Security.......................................................     5
Hon. James B. Comey, Jr., Director, Federal Bureau of 
  Investigation, U.S. Department of Justice......................     7
Hon. Matthew G. Olsen, Director, National Counterterrorism 
  Center, Office of the Director of National Intelligence........    10

                     Alphabetical List of Witnesses

Beers, Hon. Rand
    Testimony....................................................     5
    Prepared statement...........................................    43
Comey, Hon. James B. Jr.:
    Testimony....................................................     7
    Prepared statement...........................................    59
Olsen, Hon. Matthew G.:
    Testimony....................................................    10
    Prepared statement...........................................    65

                                APPENDIX

Responses to post-hearing questions for the Record:
    Mr. Beers....................................................    76
    Mr. Comey....................................................   103
    Mr. Olsen....................................................   115


                        THREATS TO THE HOMELAND

                              ----------                              


                      WEDNESDAY, NOVEMBER 14, 2013

                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, presiding.
    Present: Senators Carper, Levin, Coburn, Johnson, and 
Ayotte.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. This hearing will come to order.
    Good morning, everyone. Welcome to our witnesses, Dr. 
Coburn. I welcome all of you, and we will be joined by some of 
our colleagues here as the morning progresses, but we are happy 
you are all here bright and early.
    Today's hearing will consider threats to the U.S. homeland 
from terrorists, from cyber attackers, from homegrown 
extremists, and from lone wolf offenders. The objective of this 
hearing is for this Committee to gain a better understanding of 
how these threats have evolved over the last year and if our 
national security agencies are keeping up with these ever-
changing threats. I would add another purpose for these 
hearings is to find out what we need to be doing on the 
legislative side to better enable you to keep up with these 
ever-changing threats.
    As we know, 12 years ago, our country's sense of security 
was upended when Al-Qaeda launched the most significant attack 
on U.S. soil since Pearl Harbor. In the years since that tragic 
day, we have made significant progress in combatting the 
terrorist threat to our homeland. On behalf of this entire 
Committee, I want to express our thanks from the American 
people for the very good work that has been done and continues 
to be done to try to make sure that we stay safe in a very 
dangerous world.
    Our aviation system is more secure. Our borders are 
stronger. Our government agencies share more terrorist 
intelligence than ever before. Our first responders are better 
prepared to deal with disasters and terrorist attacks. 
Americans are safer because of these efforts.
    And while we have made great strides, our system for 
preventing terrorist attacks is not perfect, and as Dr. Coburn 
knows, one of my guiding principles is, if it is not perfect, 
make it better. This is not a time to rest on our laurels. This 
is not the time to take a victory lap. It is a time to thank 
those that are working hard to make us safe, keep us safe, and 
let us continue to work hard and work smarter.
    In this spirit, this Committee will continue its work to 
improve America's defenses against terrorism and other threats. 
Part of this process means understanding that the threat is 
also evolving. If we are to make America safer from these 
threats and secure our homeland, we must do a better job of 
anticipating those evolving threats.
    We do a good job at fighting the last war, but to secure 
the homeland, we must be better at anticipating the next war. 
We know that the threats from Al-Qaeda have changed over the 
past decade and we are now dealing with a number of splinter 
groups, including Al-Qaeda in the Arabian Peninsula, which was 
responsible for the Christmas Day attack in 2009 and which 
continues its efforts to attack us to this day.
    And we know that American citizens, as well as Canadian and 
European nationals, have taken up arms in Syria, Yemen, and 
Somalia. The threat that these individuals could return home to 
carry out attacks is real and troubling. Even as our borders 
and ports of entry (POE) have become more secure, there are 
still those within our borders who have become radicalized by 
online Al-Qaeda propaganda and seek to carry out their own 
attacks against the United States.
    And there are other threats to our domestic security 
unrelated to Al-Qaeda which we must be prepared to address. As 
the September attack on the Washington Navy Yard and the 
shooting at the Los Angeles airport just 2 weeks ago 
demonstrate, there are a variety of threats to Federal 
personnel and Federal facilities that we must be prepared to 
defend against.
    However, nowhere is the need to prepare for the next attack 
more pressing than in the cybersecurity realm. In the words of 
your predecessor, Director Comey, Bob Mueller, cyber threats 
may ``equal or surpass the threat of terrorism in the 
foreseeable future.'' With a few keystrokes, hackers can shut 
down our electric grid. They can release dangerous chemicals 
into our air that we breathe. They can disrupt our financial 
markets. And now, more than ever, we must come together to pass 
cybersecurity legislation that strengthens our defenses against 
these cyber threats and others. The threat is too great, the 
potential consequences too severe to do nothing. Today's 
hearing will explore these threats as well as others.
    Today, we will hear testimony from the leaders of the 
Department of Homeland Security (DHS), from the National 
Counterterrorism Center (NCTC), and from the Federal Bureau of 
Investigation (FBI) about the greatest dangers to the homeland 
and the steps that their colleagues are taking to further 
secure our country.
    The findings from today's hearing will help continue our 
process of recalibrating our homeland defenses to address our 
current threats as well as prepare for tomorrow's threats. It 
will also help to ensure that we have a government in place 
that can connect the dots before terror comes to our shores.
    We look forward to hearing from each of our witnesses, and 
the Members of our Committee do, as well, as we seek to defeat 
those threats and keep our countrymen and women safe from those 
who wish to do us harm.
    Now, let me turn to Dr. Coburn for any remarks he wishes to 
make.
    Senator Coburn. Thank you, Senator Carper.
    Chairman Carper. Good morning.
    Senator Coburn. Good morning.
    Chairman Carper. Good morning Mr. Johnson, and good 
morning, Dr. Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. First of all, let me welcome you to the 
Committee. I have expressed this to Senator Carper. I think we 
are best when we have open hearings, but this Committee also 
needs to have a closed hearing because the Members will not be 
able to be made aware of the things they need to be made aware 
of without a closed hearing. So, I would look forward to that 
at some point in the future.
    Secretary Beers, I want to thank you for the great work you 
are doing, filling in at Homeland Security, and the cooperative 
nature you have demonstrated. You have been great to work with 
and I want to tell you I appreciate that and thank you for it.
    Director Comey, it is a privilege to have you serving in 
your position today. I supported your position, having worked 
with you both on the Intelligence Committee and here. I 
appreciate what you are doing.
    And, Matt, you have been tremendous. People will never know 
all the work that NCTC does because they cannot, but it is 
tremendous and I applaud you being here.
    Other than that, I will reserve most of my comments for 
question and answer after we have heard the comments from our 
panelists. But I do appreciate your service. This is an 
important issue and it is important that we are having a 
discussion in public about what the real threats are. There is 
a discussion on how we address those. There is a difference of 
opinion in how we do it.
    The one final note I would make is we need to have some 
reforms so this Committee has the authority and the 
responsibility to do those things, like the Federal Information 
Security Management Act (FISMA) reform and some of the other 
reforms in terms of cyber. But it is going to be hard to move 
on cyber until we create competency, and that is one of the 
areas that we have to make sure we have right before we give 
more authority.
    So, with that, I would yield back and look forward to our 
witnesses' testimony.
    Chairman Carper. Thank you, Tom.
    Let me take just a moment to introduce our panel of 
distinguished witnesses.
    Our first witness is Rand Beers. I was joking in the 
anteroom that I knew Rand when he was six-foot-four and had 
shoulder-length blond hair, but I really did not know him then, 
and I do not know that he ever had hair that long. But, we are 
delighted, and I just want to say, to back up to what Dr. 
Coburn has said, you have taken on a tough job. First, you had 
your day job at Homeland Security, and then you were asked to 
be Deputy Secretary, and now you are asked to be the Acting 
Deputy Secretary and now the Acting Secretary. That is a whole 
lot for any one man or woman to carry, so thank you for doing 
it in good spirit.
    Rand has been serving as the Acting Secretary of Homeland 
Security since early September, when Janet Napolitano left us 
to head up the department at the University of California 
system on the West Coast. Rand most recently served as the 
Acting Deputy Secretary. Before that, he held the position of 
Under Secretary of National Protection Programs Directorate at 
the Department (NPPD).
    Prior to coming to the Department of Homeland Security, 
Secretary Beers served on the National Security staff under not 
one, not two, not three, but four Presidents. He began his 
professional career as a Marine Corps officer in Vietnam. I 
think if we go back 5 days, there was a birthday for the Marine 
Corps, so happy belated birthday and thank you for your service 
in Southeast Asia and welcome home. But, thank you for joining 
us today.
    Our next witness is James Comey, Director of the Federal 
Bureau of Investigation. He has a tough act to follow, as he 
knows. We talked about it not long ago in my office. Thank you 
for your willingness to do this and we are excited about your 
leadership and the way you hit the ground running.
    Jim is the seventh Director of the FBI since September, I 
believe. He brings a wealth of law enforcement experience to 
the FBI, having served as the U.S. Attorney for the Southern 
District of New York and as Deputy Attorney General (AG) at the 
Department of Justice (DOJ). After leaving the Department of 
Justice in 2005, Mr. Comey served as the General Counsel at 
Lockheed Martin and then held the same position at the 
investment management firm of Bridgewater Associates.
    Thank you for your presence today and your testimony. Thank 
you very much for your years of service to our country.
    Our final witness is Matt Olsen, Director of the National 
Counterterrorism Center. Matt, good morning. Mr. Olsen has 
served as the Director of the National Counterterrorism Center 
for just over 2 years. In this position, Director Olsen 
oversees the analysis and the integration of all terrorism 
intelligence in the U.S. Government, reporting directly to the 
Director of National Intelligence (DNI). Additionally, he 
oversees the strategic operational planning for 
counterterrorism activities, a role that requires him to report 
directly to the President.
    Prior to joining the National Counterterrorism Center, Mr. 
Olsen was the General Counsel for the National Security Agency 
and the Deputy Assistant Attorney General in the Department of 
Justice's National Security Division.
    Again, Matt, thank you for joining us today. We welcome 
your testimony.
    I am going to turn it over to you, and Mr. Secretary, if 
you would like to lead us off, and after you have finished your 
testimonies, we will get into a good conversation. But, you are 
recognized. Please proceed. Thank you all, again, for joining 
us.

  TESTIMONY OF THE HON. RAND BEERS,\1\ ACTING SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Beers. Thank you, Chairman Carper and Ranking Member 
Coburn and the Members of the Committee today for the 
opportunity to be here to testify.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Beers appears in the Appendix on 
page 43.
---------------------------------------------------------------------------
    I would also like to thank my co-panelists, Directors Comey 
and Olsen, for their partnership and strong collaboration as we 
together meet the shared responsibility of keeping the American 
people safe.
    Before I begin my testimony, I would like to urge you all 
and the Senate to confirm Jeh Johnson as my replacement and 
confirmed nominee. I have known him for a long time and I think 
he cares deeply about our mission and I think he has 
considerable skill, intellect, and experience, and dedication 
to deal with these evolving threats. And, Senator Coburn, I 
appreciate your remarks to him yesterday. In short, I think he 
will make an excellent Secretary.
    I would also like to take a moment, as you did, Senator 
Carper, to recognize Transportation Security Officer (TSO) 
Gerardo Hernandez, who was killed at the Los Angeles airport on 
the first of November. He was an exceptional officer and his 
loss will be felt within the Transportation Security 
Administration (TSA) and the Department. I had the honor and 
somber experience of going to his memorial service yesterday. 
It was a very moving event, and this----
    Chairman Carper. Let me just interrupt, Secretary. Is there 
another memorial service, maybe next Monday or something----
    Mr. Beers. We are having one here at TSA, yes, that is 
correct, sir.
    Chairman Carper. That is one o'clock on Monday, I think?
    Mr. Beers. I will get the time precisely to you, but yes, 
we are going to have another one----
    Chairman Carper. Thanks so much.
    Mr. Beers [continuing]. Another one here.
    That senseless act, as you said, sir, reminds us every day 
of the dangers that the men and women who work on the front 
lines of our Department, and other parts of the U.S. 
Government, have very real sacrifices that they often have to 
make on our behalf. We continue to work closely with the Bureau 
and with State and local law enforcement to fully investigate 
this crime and ensure that justice is done, as the Attorney 
General said yesterday.
    DHS works very closely with all of our partners across the 
country to build critical capabilities at every level, whether 
it is sharing information, protecting critical infrastructure, 
or protecting our cyberspace. We work with the private sector 
on improving preparedness and resilience and addressing the 
evolving threats, such as I just mentioned. Because of this 
work, our Nation, I believe, is stronger and better equipped to 
handle these threats and we are more nimble in our ability to 
respond and recover. Nevertheless, we continue to face a 
dynamic threat environment that includes threats from abroad as 
well as those that originate within our borders.
    At DHS, our chief operating principle has been to work with 
partners to detect and deter these threats as early as 
possible, to build the capabilities to respond if and when 
required, and enhance our ability to recover after the fact. We 
have sought to get information, tools, and resources out of 
Washington, D.C., and into the partners that we work with on 
the front line.
    At the Federal level, with intelligence and law enforcement 
partners like the Bureau and NCTC, we have made significant 
strides, I believe, in information sharing and joint analysis. 
Through State and major urban area Fusion Centers, we have 
improved sharing of both classified and unclassified 
information and built grassroots analytic capabilities at the 
State and local levels.
    With the FBI, we have now standardized how we train front 
line law enforcement to recognize behaviors and indicators that 
have historically been associated with terrorism and report 
suspicious activities as part of the National Suspicious 
Activities Reporting (SAR) Initiative (NSI). We have greatly 
expanded our training and our outreach on encountering violent 
extremism and active shooter threats, providing extensive 
tools, workshops, and analysis on potential indicators of 
terrorism and providing partners with resources and training to 
effectively respond to active shooter threats.
    We have also strengthened our ability to address improvised 
explosive devices (IEDs) through training and awareness and 
grants and information sharing. These investments directly 
contributed to the comprehensive and well executed response at 
the Boston Marathon attack and prevented more lives from being 
lost on that tragic day.
    We have also expanded our ``If you see something, say 
something'' campaign to more than 250 cities and States and 
transportation systems, universities, and private sector 
entities nationwide to encourage the public to play an active 
role in reporting suspicious activity.
    With respect to our aviation sector, we have built upon the 
successes of our risk-based intelligence-driven approach, which 
includes prescreening of passengers, deployment of new 
technologies, training of airport security and law enforcement 
personnel to better detect those behaviors potentially 
associated with terrorism and strengthening our air cargo 
security.
    Today, we are much better able to protect the aviation 
sector because we vet those who are traveling--who seek to 
travel or immigrate to the United States against a broad array 
of law enforcement and intelligence information. We are working 
with our components to identify ways further to enhance these 
vetting operations to harness the power of data management 
while providing better safeguards and access control. And we 
also continue to leverage information and technology to 
expedite trusted travelers through a successful program such as 
Global Entry and TSA Pre-Check. To date, more than 16 million 
travelers have already experienced Pre-Check.
    Of course, as you said, one of our major threats, one of 
our gravest threats that we continue to face is the threat to 
our cyber networks and infrastructure. Our Nation confronts a 
dangerous combination of known and unknown cyber 
vulnerabilities and adversaries with strong and rapidly 
expanding capabilities. Our focus at DHS remains securing 
unclassified Federal system government networks, working with 
critical infrastructure owners and operators, combating cyber 
crime, building a national capacity to promote responsible 
cyber behavior, and cultivating the next generation of front 
line cybersecurity professionals, all the while protecting 
privacy, civil rights, and civil liberties.
    To this end, we have deployed technology to detect and 
block cyber intrusions and we are developing continuous 
diagnostic capabilities while providing guidance to Federal 
agencies on how to protect themselves. We have also worked 
closely with infrastructure owners and operators to strengthen 
their facilities through an onsite risk assessment, mitigation, 
and incident response by sharing risk and threat information 
through U.S. Computer Emergency Readiness Team (US-CERT) and 
other means.
    Since 2009, we have also prevented $10 billion in potential 
losses through our cyber crime investigations with domestic and 
international partners and arrested more than 5,000 individuals 
for participating in cyber crime activities. We have also 
partnered with the Departments of Justice and Defense (DOD) to 
ensure the whole of government approach when responding to 
cyber incidents and threats.
    While these accomplishments are significant, and President 
Obama has further strengthened them through executive action, 
we still need Congress to pass a suite of comprehensive 
cybersecurity legislation to be best able to meet this growing 
threat.
    Thank you very much for this opportunity.
    Chairman Carper. Thank you. Thank you for that testimony.
    Before I turn it over to Director Comey, during the 
question and answers (Q&A), we are going to come back to 
cybersecurity----
    Mr. Beers. Good.
    Chairman Carper. And get just an update as to where the 
Administration is, where are we with respect to implementing 
the President's Executive Order (EO), the framework, and then 
what you need from us and why you need it. So, just be ready 
for that. That will be my first question. Director Comey.

TESTIMONY OF THE HON. JAMES B. COMEY, JR.,\1\ DIRECTOR, FEDERAL 
      BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Comey. Thank you, Chairman Carper, Ranking Member 
Coburn, and Members of the Committee, for inviting me here 
today, and most of all for your support of the men and women of 
the FBI.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Comey appears in the Appendix on 
page 59.
---------------------------------------------------------------------------
    As I think about threats to the homeland, I worry most 
about terrorism and cyber attacks. First, terrorism. I think 
about our terrorism threat today as a metasticizing threat in 
two different ways. First, I worry most at home about the 
individuals we call homegrown violent extremists (HVEs). They 
are people who are inspired by Al-Qaeda but who direct 
themselves and equip themselves to engage in their own version 
of jihad on behalf of terrorist interests. They are certainly 
encouraged by Al-Qaeda around the world. We have seen Al-Qaeda 
propaganda already embracing the tragedy at the Boston 
Marathon. And I worry very much that they are inspired also by 
high-profile attacks around the world on so-called soft 
targets.
    The second aspect in which I worry about the homeland 
terrorism threat is in Al-Qaeda itself. Although we as a Nation 
have made great progress against core Al-Qaeda in Pakistan, the 
threat posed by Al-Qaeda, in a way, has become Hydra-headed, 
and by that I mean Al-Qaeda affiliates have blossomed and 
flourished in places around the world, especially in the Middle 
East and North Africa, and especially there in territories that 
are ungoverned or poorly governed. Al-Qaeda and its affiliates, 
as you mentioned, especially Al-Qaeda in the Arabian Peninsula, 
pose the top terrorist threat to this Nation. They are 
constantly working to develop operatives and techniques to get 
past our defenses and wreak havoc in the homeland.
    To combat these threats, the FBI relies upon our more than 
100 Joint Terrorism Task Forces (JTTF) around the country which 
bring together State, local, and Federal enforcers to assess 
the threat and to disrupt the threat before it becomes a 
reality. And we also work closely through our 60 legal attache 
offices--more than 60--around the world with the Intelligence 
Community (IC) and foreign partners to try to press out beyond 
our borders to identify threats and disrupt them.
    With respect to cyber, whether by foreign governments or 
criminals or activists or terrorists, attacks on our computers 
and the systems that connect them have become one of the most 
serious threats to our Nation. As you said, Mr. Chairman, Bob 
Mueller, my predecessor, testified and also told me privately 
that he believed that this threat would, during my tenure term, 
come to eclipse even the threat from foreign terrorism to our 
homeland. And just based on my 2 months on the job, I believe 
that he is accurate in that prediction, and the reason is 
simple.
    We have connected, all of us, all of our lives, personal, 
professional, and national, to the Internet, and that is where 
the bad guys will go because that is where our lives are and 
our money, our secrets, and our intellectual property. And they 
can go there at the speed of light. A trip around the world 
takes milliseconds on the Internet. And there are no safe 
neighborhoods. All of us are next-door neighbors on the 
Internet in the blink of an eye.
    In response, the FBI has been working very hard under my 
predecessor and continues to buildup our capacity to identify 
and respond to cyber threats, focusing on intrusions, both--our 
work is done in the homeland and overseas. Here at home, the 
National Cyber Investigative Joint Task Force (NCIJTF) is a 
grouping of 19 agencies--intelligence, military, and law 
enforcement--that have come together to try and assess the 
threat, deconflict our work, and work in a smart and quick way. 
A critical partner in that is seated to my right, the 
Department of Homeland Security, with whom we are working 
better than ever, and the National Security Agency (NSA). We 
have different responsibilities and different lanes in the 
road, but it is essential that we work together, and the good 
news for the American people is that we are doing that 
incredibly well.
    While national-level coordination is important, the local 
level is also important to us and so we have stood up Cyber 
Task Forces (CTFs) in each of our 56 field offices to focus on 
cyber intrusions. And just as the JTTFs do, it is to bring 
together Federal, State, and local enforcers to focus on this 
threat and to blunt it.
    And, as I said, overseas, we are working through 60-some 
legal attaches to do the same with our foreign partners. We 
have FBI agents now embedded with police departments around the 
world, including in Romania, Estonia, Ukraine, and the 
Netherlands, to identify emerging threats, because these 
threats know no boundaries and move at the speed of light, and 
to try to also identify the key bad actors.
    But, I should add, as hard as we are working to work better 
together, it is essential that the private sector work 
effectively with the government. The private sector is, in 
almost every circumstance, the victim of cyber crime and cyber 
intrusions and we need their help to stop them.
    And let me finish by just saying a couple of words about 
how I think you and your colleagues in Congress can help us 
combat these threats and carry out our mission. When I became 
FBI Director, I did not know exactly what challenges I would 
face. I knew it would be a hard job. I have discovered that the 
challenge that I face most near field is the budget challenge 
imposed on the FBI by sequestration. I am staring at a 
situation where I need to reduce almost 10 percent of our 
budget this year. We are eliminating 3,500 positions and face 
the prospect of furlough.
    We have, as you know, Mr. Chairman, an enormous portfolio 
of responsibilities for the American people and the challenge 
of sequestration makes it enormously difficult for us to 
accomplish that mission. The FBI will always soldier on. We 
have always tried to do more and more with less. I worry very 
much, though, we are approaching a situation where we are going 
to be doing less with less.
    With that, I thank you very much for inviting me here today 
and I look forward to discussing these important issues with 
you.
    Chairman Carper. Thank you. You said the prospect of 
eliminating 3,500 positions in this fiscal year?
    Mr. Comey. Yes. We have already done that. Through 
attrition, we are not hiring, and it was Bob Mueller's plan, 
which I agreed to, we are going to eliminate 3,500 to get our 
numbers down.
    Chairman Carper. Additional, on top of what you have 
already done, or----
    Mr. Comey. He started. He marked 3,500 positions for 
elimination and I am continuing that. He took out almost $600 
million last year and I am taking out over $700 million this 
year, unless the sequestration cap on us goes away.
    Chairman Carper. And one last quick question and then I 
will turn to Mr. Olsen. Once the 3,500 positions go unfilled or 
vacated, how many positions does that leave you in the FBI?
    Mr. Comey. We will be down to where we were in 2009. So, we 
are now at about 36,000 people. We will be down around 31,000 
people.
    Chairman Carper. All right. Thanks very much. OK.
    Mr. Olsen, thanks.

 TESTIMONY OF THE HON. MATTHEW G. OLSEN,\1\ DIRECTOR, NATIONAL 
  COUNTERTERRORISM CENTER, OFFICE OF THE DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Mr. Olsen. Thank you very much, Chairman Carper, Ranking 
Member Coburn, Members of the Committee. Thank you for inviting 
me here today. I also want to thank you for your consistent 
support of the men and women at the National Counterterrorism 
Center and I would invite you to come out to NCTC and see our 
operations firsthand.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Olsen appears in the Appendix 65.
---------------------------------------------------------------------------
    I am particularly pleased to be here with Jim Comey and 
Rand Beers. We are close partners in our common fight against 
terrorism.
    It has been just over a year since I last testified before 
this Committee, and at that time, I pointed to Al-Qaeda core, 
as Director Comey referenced, really now as a shadow of its 
former self. That assessment remains true today. At the same 
time, Al-Qaeda and the senior leaders of Al-Qaeda in Pakistan 
are a leader, or remain the leader of an ideological movement, 
and that includes affiliated groups and followers worldwide, 
particularly in the Middle East and North Africa, and this 
results in a wide-ranging threat from a diverse and dedicated 
array of actors.
    The recent attack at the Westgate Mall in Nairobi, which 
was linked to Al-Shabaab in Somalia, illustrates the type of 
threat we face from around the world: Committed extremists, the 
availability of weapons, and vulnerable targets. Along with 
January's attack at the gas facility in Algeria as well as last 
fall's attack in Benghazi, all of these attacks serve as 
sobering reminders of the persistent threat of terrorism that 
we face in these regions of the world.
    Today, Al-Qaeda's core leadership in the Afghanistan-
Pakistan border region is still really trying to navigate its 
response to the ongoing events in the Muslim world and working 
to promote a global jihadist movement. Additionally, unrest in 
the Middle East and North Africa, most notably in Syria, is 
creating opportunities for veteran jihadists to recruit and 
train what may be the next generation of militants, some of 
whom are less dogmatic in their embrace of Al-Qaeda's ideology 
but still support an anti-Western agenda, and these 
developments are really blurring the lines between terrorist, 
insurgent, and criminal groups operating in these regions.
    Here in the United States, the attack on the Boston 
Marathon highlighted the danger of violent extremism at home, 
where terrorists who may have no formal or direct ties to Al-
Qaeda but still adhere to that ideology can use simple tactics 
to wreak havoc on innocent victims. As the President observed 
in his speech at the National Defense University, today, a 
person can consume hateful ideology, commit themselves to a 
violent agenda, and learn how to kill without leaving their 
home.
    So, NCTC's mission is to combat these threats both at home 
and abroad. We examine threat information. We develop leads. We 
work closely with domestic and international partners. And we 
develop strategic plans to help unify our efforts.
    And as part of these responsibilities, we are coordinating 
and integrating the Intelligence Community's support, for 
example, to the Winter Olympics in Sochi. I was just in Sochi 
last week and I had the opportunity to meet with Russian 
intelligence and security officials to discuss the threat 
picture that we face there and the security preparations for 
the games.
    Closer to home, the dedicated workforce at NCTC works in 
concert with our partners, particularly FBI and DHS, to protect 
the homeland, and we are adapting as that threat evolves. I 
would like to take just a quick moment to share with you some 
of the measures that we have initiated over the past year.
    First, in April, along with DHS and FBI, NCTC established a 
new organization called the Joint Counterterrorism Assessment 
Team (JCAT). This is the successor organization to the 
Interagency Threat Assessment Coordination Group (ITACG), which 
this Committee helped to establish but which was really no 
longer sustainable under current budget conditions. What JCAT 
does is bring together State and local first responders from 
around the country who come to NCTC to work side-by-side with 
Federal intelligence analysts to research and produce and share 
counterterrorism intelligence that is really tailored to the 
State, local, and Tribal communities, and they do this in an 
unclassified format as much as possible.
    Outside of Washington, we continue to build our Domestic 
Representative Program. We have representatives in a number of 
cities now, and we just added Boston and Atlanta. These 
individuals are intelligence analysts, senior intelligence 
analysts who work in close coordination with the FBI and the 
Joint Terrorism Task Forces and the Fusion Centers to bring the 
national intelligence picture to the local level.
    As the April attack in Boston demonstrated, there are times 
we will have little or no warning when a homegrown violent 
extremist mobilizes to violent action, and that is why we work 
closely with the Federal, State, and local officials as well as 
community partners to raise local awareness about the threat of 
terrorism as part of our countering violent extremist effort. 
It is through this whole of government approach that we are 
collaborating with community leaders to counter radicalization, 
recognizing, that it is community stakeholders who are best 
positioned to prevent the exploitation of our youth and to 
intervene when they spot signs of trouble.
    On the pragmatic side, we recognize that we cannot prevent 
every attack, so we work closely, again, with DHS and FBI to 
prepare communities should they need to respond. For several 
years, we have been involved in collaborating with DHS, the 
Federal Emergency Management Agency (FEMA), and FBI to conduct 
awareness workshops throughout the United States and help 
cities assess their readiness to respond to a terrorist attack. 
One of our first such workshops was in Boston back in 2011, and 
we think that helped contribute to the effective response we 
saw in Boston to the Marathon attack.
    Finally, to better detect and disrupt plots, we continue to 
refine and improve our counterterrorism data layer and our 
analysts' ability to have access to the information that they 
need to have access to that is collected by other government 
agencies. And it is our ability to examine a broad range of 
information, combined with sophisticated analytic tools and the 
expertise of our analysts, that is necessary to provide the 
best all-source collaborative terrorism analysis.
    In short, Mr. Chairman, after almost 10 years of service, 
NCTC has become a center of gravity in our Nation's fight 
against terrorism and it is our commitment to this team effort 
with communities throughout the country, with the government at 
all levels, and with the private sector that is at the core of 
our ability to identify and prevent the threat of terrorism.
    Thank you very much.
    Chairman Carper. Thank you, each of you, for your 
testimony. Very interesting. Very helpful. Very timely.
    The first question I want to ask, as promised, I want to go 
back to cybersecurity and I am going to ask you to--and you can 
just weave in and out in responding, but a couple of things I 
want to hear. How are we doing with the followup on the 
President's Executive Order? How is the National Institute of 
Standards and Technology (NIST) doing with respect to working 
on the framework? How does the private sector feel? What is the 
kind of feedback we are getting from the private sector as to 
how that is proceeding?
    Describe, if you will, the roles, the interrelationship, 
the responsibilities, and how you cooperate and collaborate. 
Just talk to us about your respective roles and how you 
collaborate. And, finally, how could you work better together, 
collaborate better, collaborate smarter together? And what can 
we do to help you in that regard?
    So those are a bunch of questions, but I think there is a 
theme to it, but just give us a good update, if you will. That 
will probably exhaust my 7 minutes. Thank you.
    Rand, do you want to lead it off.
    Mr. Beers. Thank you, sir. Let me start with the Executive 
Order and the Presidential Policy Directive (PPD). With respect 
to the National Cybersecurity Framework that the National 
Institute of Standard and Technology has responsibility for 
drafting, the first draft of that is completed. It is 
available. We are seeking comment from the private sector and 
government officials at all levels as well as, obviously, the 
Congress. That draft was the result of a number of workshops 
and outreach efforts that involved both NIST and the Department 
of Homeland Security in order to find a way to make sure that 
we brought the best and the brightest together in order to 
produce this framework. The final framework is due in February 
and we certainly anticipate meeting that deadline.
    In addition to that, we have been mapping the information 
sharing networks that exist within the government. We have been 
looking at the National Infrastructure Protection Plan (NIPP) 
that we are responsible for, weaving cyber and physical 
infrastructure together, because, obviously, a cyber attack may 
result in physical damage just as much as it might result in 
cyber damage.
    And all of those deadlines that were set up in the 
Executive Order have been met up to date. The longest pole in 
that tent is the science and technology report that we owe in a 
couple of years. So, with respect to that, I think we are 
moving forward in line with the expectations.
    With respect to collaboration, and obviously, Director 
Comey will comment on this, as well, what we have basically 
instituted is a call to any one of us, that is, to the Bureau, 
to the Department of Homeland Security, or to the National 
Security Agency, will be responded to collectively because we 
each bring a particular expertise and particular activities 
that I think do allow us to most effectively help an affected 
business or government entity to respond to an intrusion.
    The Bureau, obviously, has the investigative lead, and I 
will let the Director talk about that. Our responsibility is 
to, as quickly as possible, know what happened and provide 
outreach to others that will help them be able to prevent the 
same kind of an intrusion from happening to them. And the 
National Security Agency backs us up with all of the 
intelligence capabilities that they can bring to bear on an 
event.
    With respect to the legislative issue that you asked, I 
think while we are moving forward as we can with executive 
authority, we really do continue to need your support in 
passing that legislation. The areas that we can receive help 
are, first, on information sharing, to make it easier for 
private sector firms to share information with us without 
crossing lines that are of concern to them, for instance, with 
respect to personal information. We need your help in creating 
incentives that would help firms adopt higher security 
practices in cyberspace. The framework will be a good guide on 
what to do. What we need your help in is helping them realize 
why they need to do that.
    We can also benefit from additional law enforcement tools 
that were discussed in the draft legislation over a year ago.
    We also, as Senator Coburn has mentioned, can use an update 
on FISMA, as we have at DHS gotten additional responsibilities 
while the Office of Management and Budget (OMB) remains in the 
policy lead on this, as well as additional hiring flexibility 
to allow us to hire in the same way that the National Security 
Agency can hire cyber expertise.
    And, finally, a national data breach reporting requirement 
so that we can have a national reporting requirement rather 
than a patchwork of State reporting requirements on personal 
information. All of those would go a long way and can only be 
provided by you, the Congress of the United States.
    Let me stop there and turn it over to Director Comey on his 
role.
    Chairman Carper. I have used up about 6\1/2\ minutes. I 
want to be responsible to my colleagues. I am going to come 
back and ask you to just keep that question in mind, because we 
will come back in the second round and drill down on it again, 
so Dr. Coburn.
    Senator Coburn. Well, thank you for your testimony.
    One of the concerns, if you watched any of the testimony 
yesterday and the questioning of who I presume to be our new 
Secretary, it is about transparency and responsiveness. 
Secretary Beers, we had forwarded to you all on October 18 
asking information about the EB-5 system. What the legislative 
staff here on the Hill did was offer to brief us, and, of 
course, I do not want a briefing. I want the data and then we 
will take the briefing after we look at the data.
    And the problem has been at Homeland Security with timely 
responses to Committee requests for information. I think I got 
a pretty firm ``yes'' from Jeh Johnson yesterday about being 
transparent with us as long as we are responsible in terms of 
what we are asking for. So I would hope that you would redirect 
the staff there to give us the information. We have a real 
problem on EB-5s, both in terms of national security and also 
fraud, and we need that information.
    I have a letter going to Director Comey. It went October 1, 
along with Senator Chambliss and Senator Grassley, in regards 
to that same issue, and I would appreciate a response to that.
    And then, Matt, we sent you a questionnaire on the Boston 
bombing--and not only did you all not respond, you did not 
respond to say--what you told us verbally was that the FBI was 
answering for you. For us to really have a good working 
relationship, some of the things that have to happen is 
communication. And if the FBI is answering for you, you ought 
to say, ``The FBI is answering for us,'' rather than just not 
answer us, because all that does is raise the hair on the back 
of my neck, and I have a great working relationship with you 
through the Intelligence Committee and I trust you immensely. 
But just common courtesy would tell us we are going to let the 
FBI answer that.
    Matt, when was the last time you got actionable 
intelligence from a Fusion Center? Other than Boston. Boston 
gave you some information. But I am talking actionable 
intelligence.
    Mr. Olsen. We work with the Fusion Centers really through 
the FBI Joint Terrorism Task Forces and through, I mentioned in 
my opening comments, our domestic representatives who work with 
the Fusion Centers. The Fusion Centers are largely there to 
support what is happening at the State and local level, and 
they certainly serve their State and local customers. I have 
had the opportunity to visit a number of Fusion Centers and 
they seem to be doing a good job in that regard.
    It is not the case, however, that they would typically 
provide intelligence to, for example, me at the National 
Counterterrorism Center, where we are focusing more on 
national-level intelligence.
    Senator Coburn. All right. So the point is, they are an 
all-hazards, mostly State and local initiative, and the fact 
is, they are mostly funded by Homeland Security. Yet the upward 
flow of information that is actionable intelligence is almost 
nothing. And so the question is, could some of those dollars be 
better used, as far as Federal dollars, at the NCTC or at the 
FBI, as the Director has said, in terms of what we have seen in 
terms of sequester.
    I just wanted to make the point--you have not gotten any 
information that is actionable from a Fusion Center and very 
little of it goes to the Joint Terrorism Task Force, for an 
investigation. So it is not that--I am against them. It is that 
we ought to look at what they are really doing, which is mainly 
local and State, and it has as much to do with drugs and all 
these other issues that local law enforcement deal with more so 
than counterterrorism and the terrorism threat to the country.
    Let us talk for a minute. One of the things that has to 
happen on cyber has been referred to, and Secretary Beers, you 
mentioned this, is the free flow of information from the 
private sector to you all. And the problem with that is, the 
liability concerns on private information. So, my question to 
each of you is: do you think it is proper that any cyber bill 
we put forward would create a liability protection for the 
private sector in terms of sharing information with the 
government?
    Mr. Beers. Let me start, sir. That is one of the things 
that we want. Obviously, we want to make sure, together with 
you, that the liability protection that you are talking about 
is carefully crafted in order to ensure that it protects 
activity--information sharing that is legitimate under the 
terms of that and not a total blanket liability protection. But 
those are the kinds of things that would help with this so that 
they are more willing to share that information instead of 
having a long conversation between lawyers about the terms of 
the information sharing, which very much slows it down.
    Senator Coburn. Right. And nobody is talking about a 
blanket liability. But the fact is, if a company is at risk, 
fiduciary risk, with sharing something that the government 
needs on a timely basis and we have not given adequate 
liability protection for that, we are never going to get the 
information on a timely basis. We may ultimately get it, but it 
will be past the point which we could have utilized it most 
effectively. Would you agree with that?
    Mr. Beers. Yes, sir.
    Senator Coburn. Director Comey.
    Mr. Comey. Yes, Senator, I would. Since I was last in 
government, I have been the general counsel of two different 
private companies and so I know the concern in the private 
sector is that, and then a related concern, which is 
reputational damage. Will the government keep their information 
confidential? So they are worried on both fronts.
    Senator Coburn. Right. Matt.
    Mr. Olsen. I do not have anything to add to that.
    Senator Coburn. OK. Tell me about this National Cyber 
Investigative Task Force between the DHS, FBI, and NSA. We have 
had a couple of presentations, most of them in closed session, 
just so the American public can hear this. I was pretty 
impressed at the coordination and cooperation that I saw among 
the agencies, and if any of you would talk about that, I think 
it would be very good for the American people to see that, 
government is not always dysfunctional. You guys are really 
doing some stuff together across department and agency lines, 
and I think hearing about that would be very reassuring to the 
American public.
    Mr. Comey. I can say the first word about that, Senator. 
That was one of the first places I visited as Director, was to 
go and see the NCIJTF, and it is, as I said, a grouping of 19 
agencies that all touch a piece of cyber. Cyber is sort of an 
evil layer cake. There are State actors trying to steal 
information. There are terrorists. There are organized criminal 
groups. There are ``hacktivists.'' There are identity thieves. 
And there are a huge number of people in government worrying 
about different pieces of that layer cake, but until the NCIJTF 
was created, they were all sitting in different places worrying 
about it in different ways that were inefficient and 
conflicting.
    So what this did was literally pull everybody together, get 
them all in the same physical place so they could figure out 
who should work what threat and how should it be worked, and 
then parse that work out in the way that is most cost efficient 
and most effective for the American people.
    It is a great news story. A lot of its achievements are 
things we cannot talk about in an open setting, but I agree 
with you. I think it is something the American people should be 
very happy about.
    Senator Coburn. All right.
    Mr. Beers. Let me second Director Comey's remarks. It is an 
excellent way in bringing these people together, in addition to 
deciding who should take responsibility for a case, but to 
allow the people at the Task Force, when an incident comes up, 
to know who may have information about it and to pool that 
information so that when the lead investigator is determined, 
that investigator has all of that information.
    We have had cases where one or the other of us has been 
contacted about dealing with something when the other of us was 
already running a parallel investigation to that kind of 
activity which provided absolutely critical information to 
resolving that particular case.
    The other thing to keep in mind for the American people is 
these investigations are really hard because of the difficulty 
in getting attribution about who is actually doing it. But with 
dedicated investigators, we have brought down a number of these 
bad actors.
    Mr. Comey. And can I just add a word, Senator. I have 
worked a lot of different kinds of investigations in my career, 
and when you are doing a La Cosa Nostra investigation, you can 
deconflict by calling each other or setting up a meeting for 
next Wednesday. When the threat is moving at 186,000 miles per 
second, as a photon does on the Internet, there is no time to 
make that phone call. So the advantage of this, the genius of 
this is the FBI and DHS person are sitting next to each other. 
So, have you got this? Good. Go with that. We will give you 
this piece. And they can respond in the way that is needed.
    Senator Coburn. Thank you.
    Chairman Carper. Senator Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman.
    I want to welcome everybody here and also thank you 
sincerely for your service.
    I want to talk a little bit about just the actual threat 
level and the history of it, and so I want to start, first of 
all, and ask each one of you quickly, when do you believe the 
current, we will call it War on Terrorism, really began? Where 
did this all start? Secretary Beers.
    Mr. Beers. Sir, if we are talking about Al-Qaeda, I believe 
that we really first experienced it with the embassy bombings 
in Tanzania and Kenya in 1998.
    Senator Johnson. OK.
    Mr. Beers. We had evidence of them before, for example, in 
Somalia during the U.S. intervention in Somalia, but that was 
where it really came to the fore in terms of my own personal 
experience.
    Senator Johnson. Director Comey.
    Mr. Comey. I trace the current threat back to the 1980s in 
Afghanistan, a situation I worry about repeating in Syria, 
where people were getting training and learning and meeting 
each other, out of which Osama Bin Laden formed the base Al-
Qaeda.
    Senator Johnson. Director Olsen.
    Mr. Olsen. I would agree with both my colleagues. I mean, 
this is a process that has evolved and we see today the 
changing threat, as Director Comey described, a metastasized 
threat. So, it is an evolving threat, but it can be traced back 
to the 1980s.
    Senator Johnson. OK. So, my next question is--I realize the 
answer is going to have to be very subjective, but based on 
that history, that evolution, is the threat level higher today? 
I will start with you, Director Olsen.
    Mr. Olsen. It is a complicated answer. The threat level as 
we look at the threat is more dispersed geographically. The 
threat has moved out from the Afghanistan-Pakistan border 
region to broad swaths of areas that are largely ungoverned 
across North Africa and the Middle East. So, in some ways, it 
has become more significant from a geographic perspective and 
more complicated from an intelligence perspective.
    I would not say that the threat to the United States of a 
9/11-style attack is greater. In fact, I would say it is lower 
today than it was in 2001. So, the threat of that type of 
attack today is lower than it was 12 years ago.
    Senator Johnson. Director Comey.
    Mr. Comey. I would agree with that. I think because we took 
the fight to the enemy and got our act together in the last 12 
years in very important ways, the risk of that spectacular 
attack in the homeland is significantly lower than it was 
before 9/11. And what has popped up in its place are these, in 
the homeland, the risks of the smaller attacks, which are no 
less, obviously, concerning to us, but smaller, and similar 
overseas. The Hydra head is less able to attack us in the 
homeland, so it has pushed more overseas and gotten smaller and 
more disparate in the homeland.
    Senator Johnson. Secretary Beers.
    Mr. Beers. I would concur with that and go back 
particularly to Matt's comment. The dispersion makes it a 
bigger challenge in terms of knowing what and where things 
might happen, but the ``where'' is more likely now to be 
overseas than it is to be in the homeland, which is not to say 
that we should drop our guard in any way.
    Senator Johnson. So, you really do think that the threat is 
more severe in terms of a worldwide threat coming onto our 
shore as opposed to the homegrown terrorists, is that what you 
are saying?
    Mr. Beers. No, that is not at all what I am saying. I am 
saying, in terms of the consequences of a particular kind of 
attack----
    Senator Johnson. It is going to occur overseas as opposed 
to in the homeland.
    Mr. Beers. The dispersion of the Al-Qaeda brand in North 
Africa, in Yemen, in Somalia, and in other places, and as it is 
appearing to manifest in Syria now, means that the kinds of 
activities that will be undertaken are likely to be undertaken 
overseas----
    Senator Johnson. Oh, OK.
    Mr. Beers [continuing]. Rather than directed against the 
homeland. That is not to say that we still do not face a 
threat, and it is certainly not to say that homegrown violent 
extremists are inconsequential. Far from it.
    Senator Johnson. I have always felt that our strongest line 
of defense against any of these threats really is a strong 
intelligence gathering capability. To what extent has the NSA 
disclosures--how extensive has the harm been in terms of those 
intelligence gathering capabilities? Director Olsen.
    Mr. Olsen. I would echo the comments recently of Director 
Clapper, who characterized them as extremely damaging. There is 
no doubt that those disclosures have made our job harder. We 
have seen that terrorists, our adversaries, are seeking to 
learn about the ways that we collect intelligence and seeking 
to adapt and change the ways that they communicate in order to 
avoid our surveillance. So, it has made our job significantly 
harder.
    Senator Johnson. How to repair the damage of it? Director 
Comey. I mean, what does Congress need to do? What do we need 
to resist, potentially?
    Mr. Comey. Well, I agree with what Matt said about the 
challenge. Just in 2 months on the job, I have seen changes in 
terrorist behavior in response to the disclosures about our 
communications intercept capabilities. I think that Congress 
just needs to make sure that we do not--if there are changes 
that need to be made at the margins or in oversight, that we do 
not make those at the expense of the core capabilities we need 
as a country.
    Senator Johnson. Secretary Beers, what is your biggest 
concern that Congress might do that would just be a huge 
mistake?
    Mr. Beers. I think Director Comey characterized it. What we 
need to do is make sure that you are comfortable with the 
oversight, but not to throw the baby out with the bathwater in 
terms of lurching too far in terms of restrictions on our 
intelligence--our ability to collect intelligence.
    Senator Johnson. Director Olsen, you were talking about 
going over to Russia for the Olympic games. Can you describe 
the common interests we may have with Russia? Can you describe 
a little bit about who really are some solid world partners in 
this War on Terrorism? Where do we have some common interests?
    Mr. Olsen. We have a number of very close partners around 
the world in our fight against terrorism, obviously, 
particularly in Europe and particularly the United Kingdom. In 
Russia, we face a common threat of violent extremists, and 
particularly in the North Caucasus area of Russia. So, there is 
a consistent threat stream coming from violent extremists in 
that area, from terrorists in that area. They are largely 
focused on Russian government targets, but, obviously, that is 
a concern as we approach the Olympics, which will be a very 
high-profile event in February.
    Senator Johnson. Just a quick followup. Do you find Russian 
cooperation increasing or decreasing over the last, let us say, 
decade?
    Mr. Olsen. I would point to the last several months as a 
period of increasing cooperation, and Director Comey may be 
able to speak to this, as well, but since the Boston bombing, 
there has been an increase in cooperation with Russian 
intelligence authorities.
    Senator Johnson. OK. Thank you.
    Chairman Carper. Thank you, Senator Johnson.
    Senator Ayotte, welcome. Good morning.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. I want to thank the Chairman and the 
Ranking Member. I want to thank each of you for what you do for 
our country. You have very important positions in keeping us 
safe.
    Director Comey, I want to ask you about the attacks on our 
consulate in Benghazi over a year ago, on September 11. I guess 
the question that I have most of all, that you and I have 
talked about in the past when we met, why has not anyone been 
brought to justice? We are in a position now where I have seen 
public reports of individuals like Ahmed abu Khatalla, who is 
associated with Ansar Al-Sharia. The reports have been that he 
has been indicted in New York with others that have not been 
named, and yet no one has been brought to justice. Can you tell 
us why?
    Mr. Comey. Thank you, Senator. If charges are brought in a 
case and they are under seal, it is not something that I could 
talk about. What I can tell you is this is among the FBI's very 
highest priorities. I have a lot of people working very hard on 
it. We are committed to bringing to justice those responsible 
for the attack and the murder of our folks. These are often 
difficult cases to make, but as you have seen in our work--we 
never give up and we will never rest until we bring to justice 
the people responsible.
    The challenge for me is I have twin goals. I want to bring 
them to justice successfully and I want to make sure that any 
witnesses I have stay cooperative with us and that the bad guys 
do not know what I might know or what I might be doing, and so 
I am limited in what I can say in an open forum.
    Senator Ayotte. Well, one thing that struck me is on 
October 5, there was the successful raid into Libya to capture 
Al-Libi, which I congratulate the FBI and everyone who worked, 
obviously, our military and intelligence agencies, on that 
capture. And it just led me to raise, of course, in my own 
mind, when we went into Libya on October 5, if there are 
individuals that need to be captured, why we would not capture 
them then, as well. And I know that may not be something you 
can answer in an open setting, but people are frustrated that 
these people have not been brought to justice. So, I do want 
your commitment that they will be brought to justice.
    Mr. Comey. You have it. I think the Al-Libi case, I hope, 
illustrates for the American people what I said before. We will 
never stop and we will never give up. He has been wanted, as 
you know, for well over a decade. So, the work will continue.
    Senator Ayotte. Well, let me ask you. Are you getting 
cooperation from Libya on this issue of capturing and seeing 
that those who committed the attacks on our consulate are 
brought to justice?
    Mr. Comey. I do not want to talk in particular about 
particular operations or particular conversations, but I think 
as we have said publicly, the Libyan government has been 
cooperative with us in this investigation.
    Senator Ayotte. Well, we expect them to be cooperative with 
everything, obviously, we have done and the support we have 
given them.
    Let me ask you, in terms of the Al-Libi capture on October 
5, as I understand it, he was captured on October 5, placed on 
a ship, and then was interrogated for--this is according to all 
public information, now he has been publicly indicted--until 
the 12th, in which he was brought into civilian custody, is 
that right?
    Mr. Comey. I do not know the exact dates, but the general--
--
    Senator Ayotte. So, it is about a week of interrogation?
    Mr. Comey [continuing]. General contours sound right.
    Senator Ayotte. So, Mr. Beers identified the beginning of 
Al-Qaeda as the attacks on our embassies in Africa, and, of 
course, Al-Libi has been charged with those attacks on our 
consulate. He was a very major capture, was he not, of Al-
Qaeda?
    Mr. Comey. He is alleged to be one of the founding fathers 
of Al-Qaeda.
    Senator Ayotte. That is right. So, yesterday, we had the 
nominee to take over for Mr. Beers, Jeh Johnson, and he 
described interrogation as a treasure trove, as an opportunity, 
of course, for us to gather information and protect our 
country. You would agree with that, would you not, Director 
Comey?
    Mr. Comey. Yes.
    Senator Ayotte. Was 7 days enough, long enough 
interrogation, in your view, to find out everything that Al-
Libi knew about Al-Qaeda and its operations?
    Mr. Comey. I do not want to comment on the particular case. 
Longer is always better. More is always better. Interrogation, 
I agree with Jeh Johnson. Interrogation is a critical tool and 
is often a treasure trove----
    Senator Ayotte. So, here is our conundrum. Here is the 
problem we face. Let us take it out of Al-Libi for a moment. He 
was put on a ship instead of being brought to Guantanamo 
because, obviously, this has been a policy, political decision 
of the Administration of not wanting to put anyone in 
Guantanamo. But, is it practical that we can put everyone on 
ships, of his nature?
    Mr. Comey. That is a hard question for me to answer.
    Senator Ayotte. Well, I guess the question I have is, 
tomorrow, let us say we get Zawahiri. Let us say we get the 
current titular head, Ayman Al-Zawahiri, tomorrow. Where do we 
put him? You need to interrogate him, not only you, but our 
intelligence officials to protect our country. What do we do 
with him? I would hope that we are not going to only 
interrogate him for a week, so do you know what we do with him, 
where we detain him, how he is treated?
    Mr. Comey. I do not in particular. I am aware of a variety 
of options. My goal would be just what you said, to have our 
agents and our Intelligence Community colleagues have the 
opportunity to interrogate him to get that information.
    Senator Ayotte. Do you think he should be Mirandized?
    Mr. Comey. Who are you asking about? I am sorry.
    Senator Ayotte. Zawahiri. If we get Zawahiri tomorrow, when 
we capture him, do you believe that he should be read his 
Miranda rights?
    Mr. Comey. Well, I, as my predecessor did, believe that the 
more flexibility we have to delay the reading of those rights, 
the better. But, again, the reason I am hesitating is it would 
depend upon where he is and whether there was a court case 
pending against him and all those kinds of things. But, sure, 
the more flexibility, the better for us.
    Senator Ayotte. And that is because, obviously, you capture 
a known terrorist, someone who is the head of Al-Qaeda, you 
tell him he has the right to remain silent, that obviously 
could have the potential to interfere with your interrogation, 
is that right?
    Mr. Comey. Sure. It would end the interrogation. And in 
situations like that, it is not that I am looking for 
confessions to be able to use in a court----
    Senator Ayotte. No. You are using----
    Mr. Comey. I am trying to get intelligence----
    Senator Ayotte. You are looking for information to protect 
the country, right?
    Mr. Comey. Exactly.
    Senator Ayotte. And that is different than gathering--
certainly, they can be concomitant and together, but the 
priority has to be in gathering information to protect the 
country, is that right?
    Mr. Comey. Sure, and that is the way we approach it.
    Senator Ayotte. Well, the one thing I will just say is that 
I worry about the Zawahiri situation, because right now, the 
Administration has chosen not to use Guantanamo. The 
Administration is putting people on ships. But Al-Libi, to only 
interrogate someone like that for 7 days, it seems to me that 
we are losing opportunities to gather intelligence. And I hope 
that--Director Comey, you are new to this position--that we can 
work on a policy for detention and interrogation that will 
allow you to fully interrogate the worst terrorists that 
continue to pose threats for our country. So, I thank you all 
for what you are doing.
    Mr. Comey. Thank you, Senator.
    Chairman Carper. Thank you, Senator Ayotte.
    I want to return to my earlier question. Secretary Beers, 
you had a chance to respond to it. We are under cyber attack 
every day. It is not just something that could happen. It does 
happen, and it happens in a lot of different ways and a lot of 
different directions.
    I want to come back to it, and my original question, 
Director Comey and Mr. Olsen, was are you guys working 
together? How well are your agencies working together? What are 
you doing better than you were? Where can you do better still? 
How can we help? Please.
    Mr. Comey. I think two things that I could add to the 
answer that Rand Beers gave you already, one is I agree very 
much what we are doing better together is talking to each other 
and sharing information very quickly so that we can discharge 
our responsibilities quickly. So that is my first response.
    My second response is, it is our need to get information 
from the private sector quickly that is critical. Otherwise, we 
are patrolling--I picture us as police officers patrolling a 
street where the walls on either side of the street are 50-feet 
high. We can make sure that the street is safe, but we cannot 
tell what is going on in the neighborhood. That neighborhood in 
my metaphor is all the private networks and all the private 
companies that are the victims of these attacks. So, we need to 
find a way to lower those walls so that we can learn the 
information we need quickly to be able to respond to the 
attacks. That is what we could do better.
    Chairman Carper. How can we help?
    Mr. Comey. Well, I think, as Secretary Beers said, I think 
one of the things that is very important is to create 
incentives for private companies to cooperate, to address their 
concerns primarily about liability, and second, their concerns 
about their reputation. And so I think that liability issue 
sits with Congress that can offer them that protection. So, I 
think that is very important.
    Chairman Carper. Talk more about that liability protection.
    Mr. Comey. Well, private companies are concerned that if 
they turn over information, they will end up getting sued by 
people whose personal information may be somewhere in the data 
they supply, or competitors may complain about them turning it 
over, or that it will be used against them in some fashion in a 
government contract competition down the road. And all of these 
things make their general counsels, which I used to be, say, 
great idea. We really want to share. We do not want to hurt the 
stockholders of this company by sharing, so what is our 
protection? That conversation just took me 10 seconds to say 
it. That is a several hour conversation inside any company. In 
the meantime, that threat, as I said, has moved at the speed of 
light, and so that is just not sustainable.
    Chairman Carper. What are a short menu of options that we 
should consider in addressing those liability concerns?
    Mr. Comey. I do not think I am expert enough in the pending 
legislation to offer you a specific view, so I would defer to 
Secretary Beers, who I think knows it better than I.
    Chairman Carper. Is that true? Do you know better than he 
does?
    Mr. Beers. I have been at it longer, Senator.
    Chairman Carper. All right. Do you want to take a shot at 
that, a menu of options for us to consider on the liability 
side?
    Mr. Beers. Well, as explored with Senator Coburn, I think 
what we need is for the liability protection to create the 
willingness for the private sector to share information about a 
data breach as soon as they experience it, so that we can help 
them as quickly as possible and we can protect others as 
quickly as possible.
    So, how the liability protection is constructed, I am not a 
lawyer. I cannot define that in the legal terms that you all 
need to put into the law. But I certainly would be ready and 
willing to help with technical assistance on trying to define 
precisely what that ought to look like, as we tried earlier on 
with the last attempt to write the legislation in this body.
    Chairman Carper. All right. Mr. Olsen.
    Mr. Olsen. I do not have anything to add on the cyber 
legislation.
    Chairman Carper. All right. Thank you.
    Let us talk a bit about the lone wolves, the folks, 
American citizens in many cases, who become radicalized, in 
some cases by traveling abroad, being exposed to jihadist 
activities, in other cases just being radicalized here, over 
the Internet or maybe in their own communities. I worry a lot 
about that. I know you do, too. Share with us what we are doing 
to try to address that threat and how you are working together. 
How can we help you?
    Mr. Beers. Let me go ahead and start. In addition to the 
great investigative work that the Bureau does, the three of us, 
along with the Department of Justice leadership, have a regular 
dialogue among ourselves about how to craft a common approach 
to assist in the identification of individuals, the prevention 
of them carrying out their acts.
    We do this under three large categories of activity. The 
first is to look at all of the events that have occurred and 
see what transpired in those events so that we can create a 
body of knowledge about behaviors and indicators that can 
inform us and State and local law enforcement and citizens of 
what kinds of indicators might provide us with a warning of an 
event.
    We then take that information and provide it to all of our 
law enforcement partners. We conduct training in association 
with that. We conduct exercises in association with that. And 
we, as Matt Olsen indicated, that is not just before the event, 
but also what do you do after an event has begun to occur. All 
of the active shooter training that we do is designed to assist 
in that, although it is a much broader resonance in terms of 
those kinds of events.
    And then the last is community engagement, to talk to 
people in the communities, to hear what their concerns and 
issues are and to provide that information to them, as well. 
And all three of us participate in that effort, either as 
individual agencies or in concert with one another. That is the 
broad scheme of how we work together.
    Chairman Carper. All right. Director Comey, would you add 
to that, please.
    Mr. Comey. The only thing I would add is that with respect 
to the travelers--in some ways, the travelers are easier for 
us--they are still a huge challenge--than the homegrown violent 
extremist who stays in his basement the whole time, 
radicalizing himself through the Internet. There, it is a huge 
challenge, as Secretary Beers said, trying to develop a set of 
indicators. What are we looking for? What should we equip the 
police officers patrolling that neighborhood to look for? So, 
that is something we are focused on.
    The travelers, we can see them come in and out of the 
country, and so figuring out smart ways to assess what they are 
doing and to have conversations with them that are useful to us 
is something we are working together on.
    Chairman Carper. Good. Mr. Olsen.
    Mr. Olsen. If I could just really echo the comments of my 
colleagues. I mean, the challenge of the homegrown violent 
extremist is exactly as Director Comey described. This could be 
an individual who does not travel, does not communicate, maybe 
a passive consumer of radical information on the Internet, so 
really does not hit any of the trip wires that help us discern 
when somebody is mobilizing to violence.
    So, we are working closely together as a team to implement 
the strategy. The strategy has the three broad categories that 
Rand Beers laid out--engagement, training and expertise with 
State and local law enforcement, as well as countering the Al-
Qaeda narrative.
    We talked a minute ago about Fusion Centers. Fusion Centers 
do provide a very good way for us to help develop the expertise 
at the State and local level. Around the country, there are a 
million first responders between the police officers and 
firefighters. Those are the individuals who are going to be 
most likely to see someone who is on that path from 
radicalization to mobilization. And helping equip them with how 
to find those signs is a key part of the strategy.
    Chairman Carper. All right. Thanks. My time has expired.
    Let me just ask you, take 10 seconds apiece and answer this 
question. If somebody sees something--they are saying, see 
something, say something. If someone sees someone that they 
believe is being radicalized in their own community, maybe in 
their own family, who should they say something to? Rand.
    Mr. Beers. Usually, the first instance is the local law 
enforcement agencies.
    Mr. Comey. I Agree, and I would urge people, listen to that 
feeling on the back of your neck and do not write an innocent 
narrative over facts that initially strike you as strange. Just 
tell somebody.
    Mr. Olsen. And if I could just add, a key element of this 
is to build trust with those communities, particularly the 
American Muslim community, so they have the confidence and 
trust in our law enforcement agencies to, if they see something 
that gives them concern, to come forward.
    Chairman Carper. All right. Thanks so much.
    Senator Levin, it is good to see you. You are recognized.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you very much, Mr. Chairman.
    Director Comey, let me start with you. The law now does not 
allow detainees to be brought from Guantanamo to the U.S. for 
detention and trial. Should this law be changed?
    Mr. Comey. That is----
    Senator Levin. Should we allow people to be brought from 
Guantanamo to the U.S. for detention and trial? Can they be 
properly tried? Can they be safely detained?
    Mr. Comey. The policy question, I think, Senator, is one 
better answered by the Department of Justice. I know from my 
personal experience, though, terrorists can be safely detained 
and tried. I have been involved in many cases myself in 
civilian courts in the United States. So, that part, I can 
definitely answer and the answer is yes.
    Senator Levin. Well, what is that personal experience?
    Mr. Comey. Well----
    Senator Levin. More specifically, have we tried individuals 
for terrorism in Federal courts?
    Mr. Comey. Many we have. I was the U.S. Attorney in 
Manhattan after September 11, 2001, and we had cases pending 
then. We are very good in the United States at safely detaining 
bad people with all kinds of threat. We are successful in 
detaining them. The Bureau of Prisons, I used to supervise when 
I was Deputy Attorney General, and there is nobody better in 
the world. And our courts are, as they have proven in a track 
record going back to probably the largest case was the initial 
East Africa bombings case brought in the Southern District of 
New York, which was tried, and it is actually the case that Al-
Libi was just arrested on. It is a long track record.
    Senator Levin. Now, are trials that are held in Federal 
court more likely to be conducted in a speedy manner compared 
to trials before military commissions?
    Mr. Comey. I do not have enough experience--I guess we do 
not as a country--with the military commissions for me to say 
about that. So, what I can say is I do know the Federal courts 
have long been able to move these cases, protect classified 
information, and get them done in a reasonably prompt time.
    Senator Levin. Now, the argument has been made that this 
bringing terrorists to trial, either directly for trial in the 
United States or from Guantanamo, somehow or other creates a 
security threat for those communities in which they are held. 
Do we have any evidence to support that kind of a conclusion?
    Mr. Comey. I do not know of any, Senator, with respect to a 
threat created in the area of a prison facility. Our ADMAX, our 
supermax prison in the high desert in Colorado, is fairly 
remote. I do not know of any threat surrounding that facility. 
We have housed in that facility some really bad people for a 
long time.
    Senator Levin. And, Mr. Beers, is there any position that 
DHS has taken about any security threat from trying and 
detaining terrorist defendants?
    Mr. Beers. Sir, I do not have any information indicating 
any significant threat to a particular trial that has taken 
place.
    Mr. Olsen. Senator Levin, if I may, just to jump in for a 
moment here, I would want to fully endorse Director Comey's 
comments about the Federal courts. I share, at least in part, 
the experience of having been a Federal prosecutor and the 
ability of our Federal courts to handle these cases.
    And the one element I would add is--what we have seen in 
certain cases, in certain important cases, is the ability to 
obtain intelligence information from individuals who are 
brought into that system. From my perspective at the National 
Counterterrorism Center, of course, it is very important that 
we do whatever we can to gain that intelligence, and we have 
been able to do that in a number of important cases where 
individuals have been cooperative and provided important 
information.
    Senator Levin. Is there any evidence--or maybe, Director 
Comey and others, you can compare the kind of intelligence both 
in terms of quantity and quality that the FBI has been able to 
obtain from terrorist suspects compared to their being held by 
other elements of our Federal Government.
    Mr. Comey. Senator, I am not in a position to compare 
because I do not know enough about the track record in getting 
information by other agencies, so I can only speak to the 
FBI's, which is long, and it is one of the things we do best, 
is get information from people, especially bad guys.
    Senator Levin. And is that also consistent with the 
guarantees in the law for interrogation of suspects?
    Mr. Comey. Absolutely.
    Senator Levin. Let me ask you a question, Director, about a 
bill that Senator Grassley and I have introduced relative to 
U.S. States and the United States incorporating entities that 
have hidden ownership. Is there a problem from a law 
enforcement point of view in not knowing the real owners of 
corporations? In this regard, I think you may be familiar with 
what happened at the G-20 summit, where 20 leaders, including 
President Obama, reached a consensus that it was time to stop 
creating corporations with hidden owners, and President Obama 
has issued a National Action Plan which calls for Federal 
legislation, such as we have introduced, to require our States 
to include on their incorporation forms a question asking for 
the names of the real owners of the corporation being formed.
    Now, do you support that bill? Does the FBI want to know 
the real owners of corporations? Is there a law enforcement 
purpose, because we have had all kinds of letters from law 
enforcement groups, Federal Law Enforcement Officers 
Association (FLEOA), Fraternal Order of Police (FOP), Assistant 
U.S. Attorneys Association, on and on, saying it is critically 
important that you know the beneficial owners of corporations 
because, otherwise, suspected terrorists, drug trafficking 
organizations, and other criminal enterprises continue to 
exploit the anonymity afforded to them through the current 
corporate filing process. That is quoting the letter from the 
Federal Law Enforcement Officers Association.
    Do you support, as Director of the FBI, our passing a bill 
which would require States to ask one question on the 
incorporation forms: who are the real owners, who are the 
beneficial owners of the corporation that you seek to 
incorporate? And if you do support it, will you tell us why?
    Mr. Comey. I do not know enough about the bill in 
particular to have a position. I am sure the Department of 
Justice is working on it. But I agree with your premise. It is 
very important to our investigations across a whole range of 
cases to be able to learn that information.
    Senator Levin. Why?
    Mr. Comey. Because----
    Senator Levin. Give us examples. Why does it make a 
difference in law enforcement?
    Mr. Comey. Well, if you are conducting an investigation of 
a transnational organized crime group that is involved in human 
trafficking or drug smuggling and they are laundering their 
money through a particular corporate entity, connecting that 
entity to the bad guys is going to be a critical step in your 
investigation. I mean, and you could take that and make it an 
analog in any different kind of a terrorism financing case, a 
bank fraud case, a Ponzi scheme. All of those require you to 
find the people who are hiding behind particular names or 
shells.
    Senator Levin. Thank you. My time is up.
    Chairman Carper. And just to followup on the question, that 
exchange that you just had with Senator Levin, this is an issue 
that he has pursued for some time. And, interestingly enough, 
the States are uncomfortable with the manner that it has been 
pursued. The States, especially the States that have expressed 
their concern through their Secretaries of State, and we have 
encouraged our own Secretary of State in Delaware to work with, 
partner with other Secretaries of State across the country to 
meet with the FBI, engage in a conversation with the FBI and 
other law enforcement agencies to find a way that addresses the 
concerns that Senator Levin has expressed and that you, and I 
think many Americans, would share, but to do so in a way that 
the States do not find overwhelmingly difficult to administer. 
I think there is a sweet spot there and there is a negotiation 
that has begun. We appreciate the participation of the FBI and 
other law enforcement agencies in that discussion.
    Back to Senator Coburn.
    Senator Coburn. Thank you.
    Director Beers, you mentioned a minute ago the National 
Suspicious Activities group--what was the full name of that?
    Mr. Beers. ``National Suspicious Activities Reporting 
Initiative.''
    Senator Coburn. This morning, a news article broke that 
4,904 people, personal Social Security numbers, addresses, and 
professions, and lots of other detail came out of the DHS, 
whose Customs and Border Protection (CBP) was leading an 
investigation on some information about how to get around a lie 
detector test and a book that was sold. And if you read this 
report--I do not know if you are familiar with this or not----
    Mr. Beers. No, I have not seen it, sir.
    Senator Coburn [continuing]. But I would tell you, this is 
really concerning to me. First of all, it looks sloppy on its 
face in terms of the number of people. And what I would direct 
you to is today's McClatchy news story.
    But this is the kind of thing where, because it is not done 
right, it looks to be very inappropriate. As a matter of fact, 
in the story, it is quoted that the agencies will keep this 
information for long periods of time on these individuals, and 
the American people are going to want to know why and what did 
they do wrong. Because they wanted to read a book, now the 
Federal Government has shared all our information with 20-some 
other agencies, including our personal data.
    I think there is a balance to where we are going and I 
would love for you to both brief my staff and also respond to 
this news story, if you would, later today. I know I am 
catching you off guard, but we need to protect ourselves, but 
we also need to protect the Fourth and First Amendments. To me, 
on the face--and I will reserve final judgment until I hear 
from you--this is way overboard and way beyond, and I would 
hope you would address this.
    Director Comey, as you know, Senator Graham has held up and 
is holding up all nominations of the President coming before 
the Senate because, in his opinion, the Congress ought to have 
the right to interview and discuss what happened in Benghazi 
with the survivors. That has been resisted. And I have two 
questions for you. No. 1 is why does the Congress not have the 
right to do that? And No. 2 is, is Senator Graham inappropriate 
in trying to have the American people know what happened in 
Benghazi by interviewing those survivors?
    Mr. Comey. My reactions are, I do not know. This is the 
first question. And no as to the second question. It does not 
strike me as inappropriate. As I said in response to an earlier 
question, my interests are in making sure that we balance the 
FBI's need to be able to protect our witnesses and find those 
people and bring them to justice, but I do not see anything 
inappropriate with the inquiry.
    Senator Coburn. Well, but it is my understanding he has 
been told he cannot interview those survivors. Is that correct?
    Mr. Comey. Certainly not by me. I do not know. I----
    Senator Coburn. The FBI has no problem with Congress 
interviewing the survivors of Benghazi?
    Mr. Comey. No.
    Senator Coburn. All right. Thank you.
    One of the concerns that I hear from the private sector, 
Secretary Beers, on the Executive Order--and, by the way, I 
compliment the President on his Executive Order on cyber. I 
think they listened well. They built a good plan. And, so far, 
it has been executed very well. So, I congratulate him and you 
on what has been done on that.
    But, one of the concerns is about what is coming with the 
Executive Order in terms of regulations, one of the things that 
I believe is stifling our economy now, is just tremendously 
excessive, and if we want private data shared with the 
government so we can actually protect us. Do you have any 
concerns on that part, or do you have any feel for what we are 
going to see in terms of regulations?
    Mr. Beers. Sir, at this particular point in time, as we 
negotiated the original cyber bill that was considered in this 
body and in this Committee, it was not our intention to seek 
regulation in association with that. It was a very light touch. 
I think that remains our posture with respect to going forward. 
The part of the Executive Order that seeks to catalog 
regulatory authorities is an effort to pull that together to 
see what authorities do currently exist that allow regulation 
that is already underway----
    Senator Coburn. You would----
    Mr. Beers [continuing]. And see where we go from there. We 
have not completed that particular----
    Senator Coburn. You would agree that voluntary compliance, 
if people were made aware of it and made aware of the benefits 
of it, is a better scenario than forced compliance, or at least 
forced compliance should come after we see a failure of 
voluntary compliance? Would you agree to that?
    Mr. Beers. Yes, sir.
    Senator Coburn. All right. Thank you. I have no further 
questions.
    Chairman Carper. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    I would like to followup on questioning by both Senator 
Ayotte and Senator Coburn on Benghazi. Director Comey, for 14 
months, it has been the consistent excuse of this 
Administration that the reason Members of Congress do not have 
access to the survivors of Benghazi is because of the FBI 
investigation. I mean, you are aware of that, correct?
    Mr. Comey. I am not, Senator. I am not.
    Senator Johnson. So, just getting back to what Senator 
Coburn said, there should be no reason that the FBI 
investigation should be used as an excuse for us not to have 
access to question those witnesses, whether it is in an open 
hearing or in a secure briefing setting?
    Mr. Comey. As the FBI Director, I do not have an objection 
to it. I do not know whether the prosecutors would feel 
differently or there is some other reason I am not thinking of, 
but speaking from my perspective, yes, I do not have an 
objection to that.
    Senator Johnson. Director Olsen, I would just like to talk 
about the difference between our desire to prosecute and the 
difference between gathering intelligence. I mean, from my 
standpoint, with the threats that you are far more aware of 
than I am, to me, it sounds like intelligence gathering is a 
far higher priority than bringing people, I guess, to eventual 
justice, particularly when we can hold them as unlawful enemy 
combatants. Can you just kind of discuss the difference between 
the desire to prosecute, which we all want people brought to 
justice, but the need, the absolute requirement for 
intelligence gathering?
    Mr. Olsen. I think there is no conflict in that. In other 
words, from everything I have seen in my work at the National 
Counterterrorism Center and before, the No. 1 goal in any of 
these instances involving terrorist suspects is to gather 
intelligence. That is the overriding objective. At the same 
time, we need to have an option for disposition, and with 
respect to, for example, Abu Anas Al-Libi, who we discussed, 
this was an individual who was indicted and where a disposition 
option was readily available in the Federal courts. But every 
case is different and every case is treated on the basis of the 
facts presented, and in every case, intelligence gathering is 
the priority, and that is what I have experienced----
    Senator Johnson. I made a trip down to Guantanamo with 
Senator Ayotte and we spoke to the people they are continuing 
to interrogate over a very long period of time, the detainees 
down there. The very strong opinion of those individuals doing 
those interrogations say that the most effective interrogation 
occurs over years, where you gain their confidence, and slowly 
and surely you obtain the little threads of information, the 
types of threads that, I think, eventually led to the killing 
of Osama Bin Laden. Do you disagree with that? I mean, to me, I 
think it is absurd that we think we can actually gather the 
types of intelligence that is possibly there in a week on a 
ship, or a couple days before we Mirandize somebody. Do you 
disagree with that?
    Mr. Olsen. I mean, as a general proposition, I think it is 
clear that the longer opportunity we have to gather 
intelligence, to interrogate someone, the better. There are----
    Senator Johnson. So, do you not believe we really ought to 
be using that absolute first class facility down in Guantanamo 
to detain these individuals so we can gather the type of 
intelligence we need?
    Mr. Olsen. I mean, in every case, there are going to be 
other considerations that are going to come into play, and 
that, in fact----
    Senator Johnson. Any higher consideration than gathering 
the intelligence we need to keep the homeland safe?
    Mr. Olsen. There are going to be other considerations, and 
that was, indeed, what was in play with Abu Anas Al-Libi. So, 
again, though, the No. 1 goal is to gather intelligence, and 
that is what I have seen in these cases.
    Senator Johnson. OK. Well, I wish that were the top 
priority. It does not seem to be so.
    Secretary Beers, on May 23, 2012, we held a hearing in this 
Committee on the very unfortunate events in Cartagena. We were 
pretty well led to believe by the then-Director of the Secret 
Service that was a one-time occurrence. I really wanted to 
believe that. I think it is incredibly important that the 
Secret Service has total credibility and that their important 
mission of securing high government officials and national 
security information is paramount. In my capacity as Ranking 
Member on a Subcommittee that had oversight of that, we 
continued to dig into exactly what happened in Cartagena, 
hoping it was a one-time occurrence. It does not appear that it 
was.
    We have, through whistleblower accounts, found out that 
similar instances occurred in 17 countries around the world. 
And, again, that is just a limited snapshot. We have had very 
limited access to individuals that might know better. Just the 
other day, two Secret Service individuals were disciplined for 
sexual misconduct in a hotel here in Washington. One of those 
men, Ignacio Zamora, we have come to find out actually was 
involved in the Cartagena incident and interviewed Secret 
Service personnel.
    The question I have for you is we have been waiting for a 
culture report from the Inspector General's (IGs) office now 
for 18 months. Do you know when that culture report will be 
released?
    Mr. Beers. Sir, I do not have a specific date. I know that 
it is near completion and we are expecting it shortly. But I 
cannot give you----
    Senator Johnson. Do you think 18 months is kind of an 
inordinate amount of time to take to determine something I 
think is so critically important, to find out whether there is 
a real cultural problem in the Secret Service?
    Mr. Beers. Obviously, we would prefer to have the report 
sooner rather than later, sir.
    Senator Johnson. Can I get your commitment to check into 
that and get that report completed and released as soon as 
possible?
    Mr. Beers. Yes, you have it.
    Senator Johnson. OK. Thank you. No further questions, Mr. 
Chairman.
    Chairman Carper. Dr. Coburn, please.
    Senator Coburn. I just had one other thought. As we went 
through the Boston Marathon bombing and we look at the 
Tsarnaevs, the one thing that was never covered is the parents 
came here under an asylum visa, except the parents are back 
home and have been for a number of years. Has anybody looked at 
our techniques, processes, requirements for granting asylum to 
individuals, because, obviously, with the ability to return 
home to their home city from which they were granted asylum in 
the first place, something has changed. Either we got it wrong 
or something markedly changed in Chechnya. I do not think that 
is the case. So, has anybody looked at that? And I know that is 
a State Department issue probably more than Homeland Security, 
or maybe it is not. Any comments on that?
    Mr. Beers. Sir, let me start. The Tsarnaev family sought 
asylum from Kyrgyzstan, where they had moved to avoid the 
violence in their home area of Dagestan. Their request for 
asylum was that they were being discriminated against in 
Kyrgyzstan for being from Dagestan and that was the basis of 
the initial granting. So, that was the way that it happened, 
and then they, as you quite correctly say, chose later on for 
presumably personal reasons to go back to the place that they 
were actually from, that they were actually born in. Those are 
the facts of the case.
    With respect to the asylum, yes, we are looking at this as 
a regular issue, since DHS is a participant in the granting of 
asylum, because, in part, it leads often to legal permanent 
resident status and naturalization. So, we are very much a part 
of that.
    Senator Coburn. All right. Thank you very much.
    Chairman Carper. Senator Ayotte.
    Senator Ayotte. Thank you.
    Director Comey, I wanted to followup on a discussion that 
we had on the JTTF and the Memorandums of Understanding (MOU), 
because when Commissioner Davis had testified before our 
Committee about the Boston bombing, and I think all of us agree 
that there was great cooperation there and the Boston Police 
Department did a phenomenal job, along with the Federal 
partners, he had some concerns about how the MOU was operating, 
and you and I talked about that, and I wanted to followup with 
you on as to where we are with the communication on the JTTF 
for the Memorandum of Understanding. He was concerned that his 
local officers, the information was not flowing downward.
    Mr. Comey. Thank you, Senator. Yes, that is a concern that 
we have been discussing with the major city chiefs and the 
sheriffs. I had a lunch meeting last week with them to followup 
on that. So, it is a work in progress, but I think we are going 
to--our goal is to, when you and I discussed, which is to make 
sure there are not impediments, either real or perceived, and 
so his concern is being acted on. I do not have a date for when 
it will be done, but it will be very soon.
    Senator Ayotte. Good. I would very much love if you would 
report back to the Committee to just give us that answer, 
because I know it is an issue that is of importance to you, 
just so we know that this is operating and the information is 
flowing correctly downward and upward.
    Mr. Comey. Sure. I will.
    Senator Ayotte. Thank you. Also, Mr. Olsen, I wanted to ask 
you about your testimony. You mentioned something about the 
withdrawal of coalition forces from Afghanistan could enable 
core Al-Qaeda veterans to reconstitute there. Right now, the 
Administration, we are in a key moment with regard to what 
happens in Afghanistan, decisions that are going to have to be 
made on what the follow-on force will be in 2014. And so I 
guess I want to hear from you, does it matter? I have heard 
some people say, what can we accomplish there, and I was 
intrigued by what you said because I share the belief that we 
could have a reconstitution of Al-Qaeda or other terrorist 
groups there. So, could you enlighten us on that.
    Mr. Olsen. I mean, I think from an intelligence 
perspective, we are concerned about Afghanistan and Pakistan 
and the border region, no doubt, because of the presence of 
extremist groups, including the remnants of core Al-Qaeda in 
that region. We have seen that there has been an interest in 
Al-Qaeda in parts of Afghanistan, particularly Northeastern 
Afghanistan, and it is just going to be an issue that we are 
going to have to monitor very closely after 2014 to see what 
types of activities Al-Qaeda or other allies of Al-Qaeda, for 
example, the Haqqani network, undertake in that region.
    Senator Ayotte. And, in fact, have we not seen reactivity 
by Al-Qaeda, or activity by Al-Qaeda in Iraq with what is 
happening there right now. We were not able to come to an 
agreement on a follow-on force in Iraq and now we are certainly 
seeing some follow-on there. Can you describe that?
    Mr. Olsen. Sure. Senator, we have seen an uptick over the 
last several months in violence in Iraq, much of it, we 
believe, perpetrated by Sunni extremists in Iraq, almost all of 
it focused on Iraqi targets, not U.S. targets necessarily. But, 
certainly, there has been an uptick in the violence in that 
country.
    Senator Ayotte. And we certainly want to avoid the scenario 
where Afghanistan becomes a launching pad for terrorists again, 
do we not?
    Mr. Olsen. Absolutely.
    Senator Ayotte. All right. Thank you all.
    Senator Coburn. [Presiding.] Senator Levin.
    Senator Levin. Thank you. I just have a few more questions.
    Director, you indicated that you do not have a personal 
problem with Congress interviewing the witnesses from Benghazi 
but that you have not talked to your prosecutors, is that what 
you said?
    Mr. Comey. I do not know. I have not discussed it with the 
Department of Justice to see whether there are separate 
concerns about--from the Assistant U.S. Attorneys handling the 
matter about it. And when I said witnesses, I thought the 
question was about the survivors, which are the U.S. personnel 
who were there.
    Senator Levin. Correct.
    Mr. Comey. Yes.
    Senator Levin. Is it possible that you would have a 
different opinion if you talked to those prosecutors?
    Mr. Comey. It is always possible, sure.
    Senator Levin. OK.
    Mr. Comey. I do not know.
    Senator Levin. My other question has to do with going back 
to the beneficial ownership issue of corporations and the 
national security problems that are created when we do not know 
who owns the corporations. We have some, apparently, testimony 
or some indication from some of the Secretaries of State that 
the FBI could obtain--and other law enforcement agents could 
obtain corporate ownership information from the Internal 
Revenue Service (IRS) on a form, I guess it is called SS-4, but 
the corporations have to fill out those forms to get a U.S. 
Taxpayer ID Number. Does that work from the FBI's perspective, 
to try to get the important information that you described from 
the IRS instead of from the applications for corporate 
incorporation?
    Mr. Comey. I do not know enough to say, Senator. I just do 
not know.
    Senator Levin. So you are not familiar with the argument 
that the FBI could get that information from the IRS?
    Mr. Comey. I am not.
    Senator Levin. Thank you. Those are the only questions that 
I have, and I just want to thank you all.
    Mr. Olsen. Senator Levin, if I could go back to your 
question with respect to Benghazi, the one point I would like 
to offer to the Committee is over the course of the last year 
and several months since the Benghazi attacks, we have 
presented a number of briefings to Members of this Committee as 
well as a number of other members, probably over a dozen 
briefings that presented a multimedia presentation, including 
surveillance video, overhead imagery, witness statements 
describing every facet that we had from an intelligence 
perspective about those attacks. So, we have had a number of 
opportunities to present everything that we know from an 
Intelligence Community's perspective about the attacks in 
Benghazi. We would certainly offer that again if the Committee 
was interested in seeing that.
    Senator Levin. Well, I was just curious about the 
Director's comment about not having talked to the prosecutors 
and whether or not that might impact his opinion as to whether 
or not for some reason Congress should not have access to those 
survivors. I do not know of any reason, either, by the way, I 
have to tell you. I think this whole thing has been not handled 
appropriately, but that is not the point. The point is, I do 
not see any reason myself why Congress should not have access 
to anybody Congress wants to have access to. Whether it has 
overdone it or not, I will leave that up to my own personal 
opinion and to others to resolve. But, I do not have a personal 
problem, either.
    But, I, sure as heck, if I knew prosecutors had a problem 
with it, I would want to hear their view before I reached my 
conclusion. I was kind of surprised that the Director said, 
well, it is his opinion that there is no problem, but the 
prosecutors may have a different approach. So, that was the 
reason I was pressing the Director on this issue, and I can 
leave it at that.
    Going back just to clarify one question about some of the 
positions that Secretaries of State have taken about the FBI 
going to the IRS to get the beneficial ownership information, 
would you find out and give us an answer for the record as to 
whether or not the FBI believes that is a satisfactory 
alternative to knowing the beneficial owners from the 
incorporation documents? Would you let us know for the record?
    Mr. Comey. Sure, Senator.
    Senator Levin. Thank you.
    Chairman Carper. [Presiding.] All right. I have a couple of 
closing questions, and then I will give you an opportunity, if 
you want, just to make a short closing statement of your own, 
so think about that while I ask these questions.
    Probably most Americans are concerned about their personal 
security in this country, either from crime in their own 
communities or own States or the threat of a terrorist attack. 
I think people are more mindful of the threat of cyber attacks 
than they have ever been, and we are reminded of those threats 
every day. People in this country are also concerned about 
their own privacy and the ability to have their privacy 
protected, and sometimes there is a tension between those two 
desires. We all want to be safe. We also want to make sure that 
our rights to privacy are protected.
    Please talk about the tension that exists between those two 
rights and concerns and how we are trying to strike the right 
balance, please. Mr. Olsen, do you want to go first.
    Mr. Olsen. Sure. This is an issue, obviously, that is front 
and center today, and I can assure you, Mr. Chairman, and the 
Committee that it is an issue that is part of what we think 
about every day at the National Counterterrorism Center, and I 
know it is true from my experience at the other places I have 
worked, including the National Security Agency and the 
Department of Justice.
    Particularly with respect to where I am now, at the 
National Counterterrorism Center, we are charged with the 
responsibility of preventing terrorist attacks. We do that by 
integrating and analyzing information. We understand that we 
need to have access to a lot of information, government-
collected information, in order to do that, in order to analyze 
that information, look for particular threads, look for 
threats, share that information, again, with agencies like the 
FBI and others who can act upon it.
    But we also understand that in so doing, in handling that 
information, we are responsible for being stewards of that 
information and that we are entrusted by the American people 
with protecting it. And it is part of our training, it is part 
of everything we do in terms of having access to information 
that we understand the laws and the policies and the 
regulations that apply to protecting that information to ensure 
that we do so in a way that is consistent with the civil 
liberties and privacy of all Americans.
    Chairman Carper. What further could you say to the American 
people who have these concerns about the right to privacy and 
their concern it is being violated or could be violated? What 
more could you say to reassure them that this is, indeed, a 
concern that the Administration and those with whom you work 
are mindful of?
    Mr. Olsen. Well, I think what I would say is that, again, 
the training and the oversight that we are subject to is unlike 
anything I have seen anywhere in the world, and it surpasses 
that which we experienced 10 years ago or even 5 years ago. So, 
the degree of oversight that we are subject to by Congress, by 
the judicial branch, by other elements of the executive branch, 
I believe should give the American people confidence that we 
are handling this information in a way that is appropriate and 
that secures privacy and civil liberties.
    That said, we depend on the confidence of the American 
people in being able to do our job, so we are committed to 
being as transparent as possible in how we do that in order to 
continue to gain and maintain their confidence.
    Chairman Carper. All right. Director Comey, we have people 
that are concerned that folks at NSA are reading their e-mails, 
looking at their text messages, listening to their telephone 
conversations. What can you say to reassure almost all 
Americans that is not a concern they need to have, or can you?
    Mr. Comey. The first thing I would say is I agree very much 
with Director Olsen, that this is something every American 
should care about. Every American should care about how the 
government is using its authorities to protect them and where 
the government is also being mindful of the liberties that make 
this country so special. And what I tell folks is, look, our 
Founders were geniuses. They divided power and created three 
parts of government to check power.
    So, if you care about these issues, and everybody should, 
you should first ask, is the government working? Is there 
oversight? How is that oversight being done? Is it balanced? 
And the second thing is, I tell people, you should participate. 
Everybody should ask questions about how government is using 
its authorities and ask whether the system is working.
    I happen to think the angel is in those details, that what 
has gotten lost in a lot of the discussion about how we use our 
authorities is just how the design of the Founders is operating 
to balance and to oversee the use of those authorities.
    The challenge for all of us who are in charge of protecting 
the American people is finding the space in American life to 
have that conversation, because it cannot be on a bumper 
sticker. It requires me to say, look at how Congress oversees 
me. Look at how the Inspector General oversees me. Look at what 
the courts do. Look at what I report on. And that seems kind of 
boring, but that is the most important part of what we do, to 
show people that the government is working.
    Chairman Carper. All right. Thank you. Secretary Beers.
    Mr. Beers. I would certainly associate myself with the 
comments of both of my colleagues. The only thing that I would 
add is as a practical and operational matter at DHS, we have a 
Privacy Office with a Chief Privacy Officer, and we involve 
them in all of our projects to both collect, store, and share 
that information. Almost none of it is what you would call 
intelligence, but it is information and it is private 
information about applications for citizenship or travel 
information or visas. There is a lot of it and it is certainly 
one of the major activities that we engage in order to ensure 
that we are good stewards of that information as we obtain, 
store, and share.
    Chairman Carper. Should there be a similar kind of entity 
within, say, NSA that also, or the Foreign Intelligence 
Surveillance Court (FISA Court), focuses on privacy, as well?
    Mr. Beers. What works for us is what works for us, sir. I 
do know that they do have individuals who work on these issues 
with their staff, just as Director Olsen mentioned they do at 
NCTC. It just happens that, uniquely, we have an office that is 
formally part of the organization with a Chief Privacy Officer.
    Chairman Carper. Could you say to the American people with 
assurance that the gathering of all this information--and I 
realize it is impossible for NSA to actually listen to every 
telephone conversation, to read every e-mail, to be mindful of 
all the text messages that might be sent--but is there some way 
that you could reassure the American people that all the effort 
that is underway that we are talking about is actually for some 
good purpose, but actually for a demonstrated purpose because 
it has made us safer again and again and again? Can you provide 
any reassurance along those lines?
    Mr. Comey. What I can tell you, Senator, and the American 
people, is this is an agency that is not some rogue actor, the 
NSA. We work very closely with them. They have a very strong 
compliance culture. And they are overseen in many different 
ways in their activities. What I say to folks who discuss it 
with me is, look, if you think the law ought to change, well, 
that is a discussion to have with Congress. But I have seen no 
indication that the NSA is acting outside the law or outside 
the scope of their oversight responsibilities. I just know from 
working with those folks, they are obsessed with compliance and 
with staying within the law.
    Chairman Carper. Mr. Olsen.
    Mr. Olsen. I would agree with Director Comey, and I, as I 
mentioned, served as the General Counsel at the National 
Security Agency. It is an extraordinary agency and it is an 
agency that is committed and, I think, using Director Comey's 
word, obsessed with compliance. They have a Chief Compliance 
Officer. They have an Inspector General. They have a General 
Counsel's Office. The leadership on down reiterates and 
reinforces the importance of complying with the law and the 
civil liberties and privacy of Americans. They follow the law 
when it comes to the collection of information involving U.S. 
persons. They do not indiscriminately collect information 
around the world. They serve to protect American lives, and 
that is what I saw when I served there.
    Chairman Carper. All right. Thank you.
    Let us turn to the issue of dirty bombs, devices that could 
use radiological material, could sicken a lot of people, could 
cause significant psychological and, really, economic damage on 
a community. The Nuclear Regulatory Commission (NRC) in the 
Department of Energy's, I think it is the National Nuclear 
Security Administration, I believe they are responsible for the 
security of radiological sources. I think there was a GAO 
report, I want to say it was about a year ago, maybe September 
of last year, an audit that revealed that the U.S. medical 
facilities that house radiological material still face some 
challenges securing their supplies from potential theft.
    Director Olsen, I do not know if you have any thoughts that 
you could give us, but what is the Intelligence Community's 
assessment of the likelihood that Al-Qaeda or one of its 
affiliates will seek to acquire radiological materials in order 
to try to make a dirty bomb?
    Mr. Olsen. I think what I can say in this setting is that 
we have seen over time some degree of interest along those 
lines, but nothing at this point that I would consider to be 
more than the sort of most basic aspirational type of interest 
by a terrorist organization. And I am not familiar with the 
report that you referenced.
    Chairman Carper. OK. And, Director Comey and Secretary 
Beers, what roles do your agencies play in preventing 
terrorists from building and potentially detonating a dirty 
bomb in the United States?
    Mr. Comey. I could probably answer for both of us. We share 
a responsibility that, at the FBI, we execute through our 
Weapons of Mass Destruction Directorate, one of whose 
responsibilities is to work with DHS to understand what are the 
potential sources of materials that terrorists could use to 
harm us and what are the trip wires we put in place so that we 
can know if something suspicious is happening around that 
material.
    Chairman Carper. All right. Secretary Beers.
    Mr. Beers. The only thing that I would add is we do have 
the ability to at least screen with radiation detectors at our 
ports of entry. Obviously, it is possible that you could shield 
that information, but at least it gives us a first order sensor 
system to try to determine whether or not that information 
comes into the United States. We have also, through our grants 
program, helped State and local authorities obtain first order 
radiation detectors so that they can also look for that 
material within the country. But the key here is that we and 
the Bureau work together very much on this kind of effort.
    Chairman Carper. OK. Good. We talked a little bit earlier 
about travel, terrorist travel, going to a place for a while 
overseas and in a place from which they can freely travel back 
to the United States. Let me just ask each of you, what are we 
doing to better track and monitor people traveling to war zones 
and terrorist safe havens and then deciding to return to the 
United States? Mr. Olsen.
    Mr. Olsen. It is an important question and a matter of 
significant concern for us, Mr. Chairman. In particular, I 
would reference Syria as a place that we are concerned about 
because of the ongoing conflict there and the presence of 
extremist elements, including a group connected to Al-Qaeda 
such that it has become a place where literally thousands of 
individuals from other countries have gone to Syria to join in 
the fight, a number of them to join with Al-Nusra, this group 
that is connected to Al-Qaeda.
    At NCTC, we work closely with the FBI and DHS to track the 
travel of any individuals that we have identified as an 
extremist and to, if appropriate, place those individuals on 
the watch list. We maintain the central database of known and 
suspected terrorists. That central database for the government 
provides a resource for all of our agencies as well as some of 
our partners around the world to identify those individuals and 
then to do what we can to look for the ways in which they are 
traveling, the facilitation routes, how they are funded, where 
they are going, and to disrupt their travel if possible, but at 
least to identify them so if they do return to their home 
country, and especially, obviously, the United States, we have 
a handle on what their activities are.
    Chairman Carper. All right.
    Mr. Beers. Let me add to that. This is truly an integrated 
effort. We sit together in terms of trying to pull together the 
lists of individuals that we have identified as potential 
threats to the United States. We also have a program with our, 
particularly our European allies because of the visa waiver 
program, to share information that they and we might have 
nationally with one another in order to add to the database 
that we have of the individuals who are of concern.
    We at DHS also support this effort through our travel 
analysis, looking for people who we do not know might have gone 
to Syria--or might have gone to Syria for nefarious purposes. 
We have a number of indicators that help us identify 
individuals who we might want to speak to at ports of entry as 
they return to the United States.
    I do not want to go into the details of that because I do 
not want to give away the way we actually do that, but we have 
a number of techniques which will allow us to identify somebody 
who it is not clear in terms of their travel record leaving the 
United States and coming back that they were anywhere near 
Syria. But there are other indicators that can give us 
indications that we might want to talk to those individuals, 
and that is part of finding the unknowns as opposed to tracking 
the knowns, which I think we are pretty good at.
    Chairman Carper. Good. Thank you for responding to that 
question.
    That is the last question I have except this is an 
opportunity for you, if you would like to each just give a 
short closing statement, please. And it could be something that 
has come to mind, something that you want to reiterate, 
something that you heard another colleague say that you think 
is worth emphasizing. Go ahead, please.
    Mr. Olsen. Well, Mr. Chairman, first, let me just thank you 
and this Committee for holding the hearing and really for your 
consistent and steadfast support for the Intelligence Community 
and for all of our efforts with respect to protecting the 
homeland.
    The one issue, I think, that comes to mind goes back to 
Director Comey's opening comments, and that is on the budget. 
We are struggling, like all other government agencies, to deal 
with the sequester cuts, and this is a real issue that strikes 
at the core of our workforce and it is something that I think 
bears raising in this forum.
    Chairman Carper. And I am glad you did. Thank you.
    Mr. Olsen. But, otherwise, I would just offer, again, to 
continue to work closely with you and the Committee going 
forward for whatever you need from us as we work together.
    Chairman Carper. Great. Thank you. Director Comey.
    Mr. Comey. Mr. Chairman, I would just thank you for having 
this hearing. These conversations are critically important to 
the American people. They should demand to know how we are 
doing our jobs and how we are using the power we have been 
given and we ought to answer and have those conversations. I 
should not be doing anything--we should not be doing anything 
we cannot explain. Sometimes it has to be in a closed setting 
so that the bad guys do not know what we are doing, but these 
conversations are what the Founders intended, so thank you.
    Chairman Carper. You are welcome, and thank you. Secretary 
Beers.
    Mr. Beers. I certainly would be remiss in not piling on the 
budget question. It obviously affects us enormously at DHS, 
with 240,000-plus individuals and a vast array of programs.
    The second point I would make is the point that we talked 
repeatedly about. We really do need the cyber legislation. I 
know that you and this Committee are trying to do something on 
that, but as we have sat here and told you and you have told us 
that this is a critical vulnerability that the United States 
faces, not having that legislation leaves that vulnerability 
open and we owe it to the American people to be able to protect 
them and protect them better.
    Chairman Carper. Well, those are all really good notes on 
which to close.
    I want to, again, thank you for your preparation, for 
clearing your schedules to be with us and spend time with us.
    Dr. Coburn said to me that it is too bad the other Members 
of our Committee could not have been here to hear this and to 
participate in the conversation. All of them have several 
Committee hearings going on simultaneously and it is just 
difficult for them to go to every one of them. But about half 
of our colleagues were able to join us for part of it. Their 
staffs were, in many cases, here, but also watching on closed-
circuit television back in their offices, as you know.
    Director Comey, this is the first time that you have been 
before us to testify and I am very impressed by the way you 
handled yourself. These other two fellows are seasoned pros and 
they lived up to their reputation.
    Rand, thank you for taking on all these responsibilities 
over at DHS and doing them well while we work very hard to try 
to get a Secretary confirmed and a Deputy Secretary confirmed 
so you can be a little less frenetic.
    Thank you very much, and I think the hearing record is 
going to remain open for 12 days. That is until November 25, at 
5 p.m., for the submission of statements and questions for the 
record.
    And with that, this hearing is adjourned. Thank you again 
very much.

    [Whereupon, at 12:07 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre></body></html>
